      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




April 14, 2010

TO:              Charlene Frizzera
                 Acting Administrator
                 Centers for Medicare & Medicaid Services


FROM:            /Joseph E. Vengrin/
                 Deputy Inspector General for Audit Services


SUBJECT:         Review of High-Dollar Payments for Inpatient Services Processed by Noridian
                 Administrative Services, LLC, for the Period January 1, 2003, Through
                 December 31, 2005 (A-07-09-04148)


Attached, for your information, is an advance copy of our final report on high-dollar payments
for inpatient services processed by Noridian Administrative Services, LLC (Noridian), for the
period January 1, 2003, through December 31, 2005. We will issue this report to Noridian
within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816)
426-3591 or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-09-04148.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106
April 21, 2010

Report Number: A-07-09-04148

Mr. Jay Martinson
Executive Vice President, Chief Operating Officer
Noridian Administrative Services, LLC
900 42nd Street South
P.O. Box 6055
Fargo, ND 58103-2146

Dear Mr. Martinson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of High-Dollar Payments for Inpatient Services
Processed by Noridian Administrative Services, LLC, for the Period January 1, 2003, Through
December 31, 2005. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-09-04148 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jay Martinson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL


REVIEW OF HIGH-DOLLAR PAYMENTS
FOR INPATIENT SERVICES PROCESSED
   BY NORIDIAN ADMINISTRATIVE
  SERVICES, LLC, FOR THE PERIOD
    JANUARY 1, 2003, THROUGH
        DECEMBER 31, 2005




                        Daniel R. Levinson
                         Inspector General

                            April 2010
                          A-07-09-04148
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with fiscal intermediaries to process and pay Medicare Part A claims
submitted by hospitals. The intermediaries use the Fiscal Intermediary Standard System and
CMS’s Common Working File to process claims. The Common Working File can detect certain
improper payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges based on the diagnosis-related group to which a beneficiary’s stay is
assigned. The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 3, section 10.1,
requires that hospitals submit claims on the appropriate forms for all provider billings, and
chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

The diagnosis-related group payment is, with certain exceptions, payment in full to the hospital
for all inpatient services. Section 1886(d)(5)(A)(ii) of the Act provides for an additional
payment, known as an outlier payment, to hospitals for cases incurring extraordinarily high
costs.

During calendar years (CY) 2003 through 2005, Noridian Administrative Services, LLC
(Noridian), was the fiscal intermediary serving Medicare providers in 11 States. Noridian
processed approximately 2.6 million inpatient claims during this period, 415 of which resulted in
payments of $200,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that Noridian made to
hospitals for inpatient services were appropriate.

SUMMARY OF FINDING

Of the 415 high-dollar payments that Noridian made to hospitals for inpatient services for
CYs 2003 through 2005, 306 were appropriate. The 109 remaining payments included net
overpayments totaling $3,030,671. At the start of our audit, hospitals had refunded
overpayments totaling $1,144,709 but had not refunded net overpayments totaling $1,885,962.

Contrary to Federal guidance, hospitals inaccurately reported the number of billing units of
service, reported incorrect procedure codes, and reported excessive charges that resulted in
inappropriate outlier payments. Hospitals attributed most of the incorrect claims to clerical
errors or to billing systems that could not prevent or detect the incorrect billing of units of


                                                  i
service and other types of billing errors. Noridian made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the Common Working File had sufficient
edits in place during CYs 2003 through 2005 to prevent or detect incorrect payments.

RECOMMENDATIONS

We recommend that Noridian:

      recover the $1,885,962 in net overpayments,

      determine and recover the overpayment for one inpatient claim still under adjudication,

      use the results of this audit in its provider education activities, and

      consider implementing controls to identify and review all payments greater than
       $200,000 for inpatient services.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take. Noridian’s comments are
included in their entirety as the Appendix.




                                                  ii
                                                  TABLE OF CONTENTS
                                                                                                                         Page

INTRODUCTION........................................................................................................... 1

          BACKGROUND .....................................................................................................1
              Medicare Fiscal Intermediaries .......................................................1
              Claims for Inpatient Services.......................................................................1
              Noridian Administrative Services, LLC ......................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope............................................................................................................2
               Methodology ................................................................................................2

FINDING AND RECOMMENDATIONS.......................................................................3

          FEDERAL REQUIREMENTS................................................................................3

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................4

          CAUSES OF INAPPROPRIATE HIGH-DOLLAR PAYMENTS .........................4

          RECOMMENDATIONS.........................................................................................5

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS.....................5

APPENDIX

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




                                                                   iii
                                            INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part A claims submitted by hospitals. 1 The intermediaries’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Intermediaries use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process hospitals’ inpatient claims. The CWF can detect
certain improper payments during prepayment validation.

In calendar years (CY) 2003 through 2005, fiscal intermediaries processed and paid
approximately 40.9 million inpatient claims, 8,253 of which resulted in payments of $200,000
or more (high-dollar payments).

Claims for Inpatient Services

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full
to the hospital for all inpatient costs associated with the beneficiary’s stay. The Medicare
Claims Processing Manual, Pub. No. 100-04, chapter 3, section 10.1, requires that hospitals
submit claims on the appropriate forms for all provider billings, and chapter 1, section
80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.

Section 1886(d)(5)(A)(ii) of the Act provides for an additional Medicare payment, known as
an outlier payment, to hospitals for cases incurring extraordinarily high costs. 2 The fiscal
intermediary identifies outlier cases by comparing the estimated costs of a case with a DRG-
specific fixed-loss threshold. 3 To estimate the costs of a case, the fiscal intermediary uses the


1
  The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173 (MMA),
which became effective on October 1, 2005, amended certain sections of the Act, including section 1816(a), to
require that Medicare administrative contractors replace carriers and fiscal intermediaries by October 2011.
2
 Outlier payments occur when a hospital’s charges for a particular Medicare beneficiary’s inpatient stay
substantially exceed the DRG payment.
3
 A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.


                                                         1
Medicare charges that the hospital reports on its claim and the hospital-specific cost-to-charge
ratio. Inaccurately reporting charges can lead to excessive outlier payments.

Noridian Administrative Services, LLC

During our audit period (CYs 2003 through 2005), Noridian Administrative Services, LLC
(Noridian), was the Medicare Part A fiscal intermediary serving Medicare providers in 11
States. 4 Noridian processed approximately 2.6 million Part A inpatient claims during this
period, 415 of which resulted in high-dollar payments.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that Noridian made
to hospitals for inpatient services were appropriate.

Scope

We reviewed the 415 high-dollar payments for inpatient claims that Noridian processed
during CYs 2003 through 2005. We limited our review of Noridian’s internal controls to
those applicable to the 415 high-dollar payments because our objective did not require an
understanding of all internal controls over the submission and processing of claims. Our
review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the National Claims History file, but we did not assess the completeness of
the file.

We conducted fieldwork from July 2007 through April 2009. Our fieldwork included
contacting Noridian, located in Fargo, North Dakota, and the hospitals that received the high-
dollar payments.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and guidance;

       used CMS’s National Claims History file to identify inpatient claims with high-dollar
        Medicare payments;




4
 Pursuant to the MMA, Noridian became a Medicare administrative contractor effective July 31, 2006, which
was after our audit period.


                                                       2
      reviewed available CWF claim histories for the 415 claims with high-dollar payments
       to determine whether the claims had been canceled and superseded by revised claims
       and whether payments remained outstanding at the time of our fieldwork;

      contacted the hospitals that received the high-dollar payments to determine whether
       the information on the claims was correct and, if not, why the claims were incorrect;

      obtained documentation from the hospitals confirming all incorrect claims identified;
       and

      coordinated the calculation of overpayments and discussed the results of our review
       with Noridian.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our finding and conclusions based on our audit objective.

                         FINDING AND RECOMMENDATIONS

Of the 415 high-dollar payments that Noridian made to hospitals for inpatient services for
CYs 2003 through 2005, 306 were appropriate. The 109 remaining payments included net
overpayments totaling $3,030,671. At the start of our audit, hospitals had refunded
overpayments totaling $1,144,709 but had not refunded net overpayments totaling
$1,885,962.

Contrary to Federal guidance, hospitals inaccurately reported the number of billing units of
service, reported incorrect procedure codes, and reported excessive charges that resulted in
inappropriate outlier payments. Hospitals attributed most of the incorrect claims to clerical
errors or to billing systems that could not prevent or detect the incorrect billing of units of
service and other types of billing errors. Noridian made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in place to
prevent or detect incorrect payments.

FEDERAL REQUIREMENTS

Section 1815(a) of the Act prohibits Medicare payment for claims not supported by sufficient
documentation. The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 3,
section 10.1, requires that hospitals submit claims on the appropriate forms for all provider
billings, and chapter 1, section 80.3.2.2, requires that claims be completed accurately to be
processed correctly and promptly.

Section 1886(d)(5)(A)(ii) of the Act provides for Medicare outlier payments to hospitals, in
addition to prospective payments, for cases incurring extraordinarily high costs. CMS
provides for these additional payments, as specified in 42 CFR § 412.80, to hospitals for


                                                 3
covered inpatient hospital services furnished to a Medicare beneficiary if the hospital’s
charges, as adjusted by the hospital-specific cost-to-charge ratio, exceed the DRG payment
for the case.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Noridian made 89 net overpayments totaling $1,885,962, which hospitals had not refunded
prior to the start of our audit. 5 The overpayments involved hospital claims submitted with
inaccurate data, including incorrect numbers of billing units of service, incorrect procedure
codes, and excessive charges that resulted in inappropriate outlier payments.

The following examples illustrate the billing errors:

        One hospital billed 43,550 units of Healthcare Common Procedure Coding System
         code J7193 (Factor IX nonrecombinant) when it should have billed 436 units,
         resulting in an overpayment of $310,817.

        One hospital billed outpatient drugs on three inpatient claims, resulting in a total
         overpayment of $96,866.

        One hospital submitted four claims that covered intravenous therapy billed by the hour
         instead of by visit, resulting in a total overpayment of $89,366.

The hospitals attributed most of the incorrect claims to clerical errors or to billing systems
that could not prevent or detect the incorrect billing of units of service and other types of
billing errors.

CAUSES OF INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Noridian made the incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to prevent or detect incorrect payments. In
effect, CMS relied on hospitals to notify the fiscal intermediaries of inappropriate payments
and on beneficiaries to review their Medicare Summary Notice and disclose any inappropriate
payments. 6




5
  We could not determine the amount of the overpayment for 1 of the 89 claims. The provider indicated to us and
to Noridian that it was willing to refund this overpayment. However, because of the time elapsed since the claim
was initially filed, the adjustment will have to be manually processed. The provider said that it was waiting for
assistance from Noridian to do so.
6
 The fiscal intermediary sends a Medicare Summary Notice to the beneficiary after the hospital files a claim for
Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the
amount due from the beneficiary.


                                                         4
RECOMMENDATIONS

We recommend that Noridian:

      recover the $1,885,962 in net overpayments,

      determine and recover the overpayment for the one inpatient claim still under
       adjudication,

      use the results of this audit in its provider education activities, and

      consider implementing controls to identify and review all payments greater than
       $200,000 for inpatient services.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take. Noridian’s comments are
included in their entirety as the Appendix.




                                                  5
APPENDIX
APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS 





   ~
   NORIDIAN"
   ~             Sen!ictts uc 	
                                                                                                  Paul O' Donnell
                                                                                                  "Iedicaf>l Operalloos
                                                                                                  900 42na Street Sou!.II
                                                                                                  Fmio. NO 581C13
    February 22, 20\0 	                                                                           101·277-2401 

                                                                                                  fAX : 101·217-5150 

                                                                                                  1)8<11.<><IoorIeIMJtnQridlan,rom

    Patrick J . Cogley 

    Office of Tns~lor Genernl 

    Region VII 

    601 East 12th Street 

    Room 0429 

    KansasCity,MO 64 106 


    RE: Report Nu mber A-07-09-04 J48

    Dear Mr. Cogley;

    Thank you for the opponu nity 10 respond to the drafl repon of the U.S. Departmen t of Health & Human Services,
    Office of Inspector General (GIG) dated February 3, 2010, e ntitled, Re~iew of High -()Qllar Poymenufor htpal;ent
    Services Processed by Noridian Adminislrolivt Services, LLC, for rhe Period January I, 2003, Through December
    31,2005.

   We conc ur with the recommc lldlilion thlllllil overpayments identirled ought (0 be collected. Noridian Administrative
   Services, LLC. (NA5) has reviewed all claims identified liS Ilverpayments by thi s ~port. NAS ha.~ already colle<:ted
   these overpayments either by provider refund check or adj ustment made by the provider.

    The report references one inpatien t claim that is curre nt ly being reviewed by the OIG, NAS and the provider. A
    determination has not bee n madc o n whether or n(){ there is truly an overpayment on th is claim. Inpatient claims are
    paid on a DRG rate and the provider wa nts to remove chlUl1.es that would impaCl lhat rate. If the provider does nOI
    remove proced ure or diagnosis codes. then no overpayment will exist. NAS and DIG will be working with the
    provider to determine the ou tcome of this claim.

    As recomme nded, we will consider tbe results ofthis audit in the analysis of topics for provider education activity.

   In order 10 review high dollar claims, an ed it has been developed for the whole Part A standard system - Fiscal 

   Intermediary Standard System (FISS). T his edit will suspe nd claims pay ments at or over $250,000 to verify 

   informat ion is correct, particularly the uni ts billed. Th is standard edit is expected to be implemented on March I, 

   2010. 


   Please advise if addit ional infonnat ial is needed or if further clarification is needed on any of our responses.

   Sin<:erely,

   lsi PaulO' Dcnllell

   Paul O'Donnell 

   Vice President 

   Nondia n Administrative Services, LLC 





  -

